             Audit Report




Request for Review Workloads at the
          Appeals Council




       A-12-13-13039 | March 2014
MEMORANDUM


Date:      March 7, 2014                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Request for Review Workloads at the Appeals Council (A-12-13-13039)

           The attached final report presents the results of our audit. Our objective was to assess steps the
           Appeals Council had taken to reduce its pending request for review workloads and related
           processing times.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Request for Review Workloads at the Appeals Council
A-12-13-13039

March 2014                                                                   Office of Audit Report Summary

Objective                                    Our Findings

To assess steps the Appeals Council          Since Fiscal Year (FY) 2007, the AC has struggled to keep up with
(AC) had taken to reduce its pending         the increasing number of request for review cases it has received.
request for review workloads and             As a result, by FY 2013, the AC’s case backlog had tripled, and
related processing times.                    related processing times were about 60 percent higher than
                                             FY 2007. Throughout this period, the AC continued increasing
Background                                   dispositions and productivity through hiring, improved training, and
                                             analyst performance goals. Moreover, the AC’s focus on the oldest
The AC, within the Office of Appellate       cases benefited claimants waiting the longest for their cases to be
Operations (OAO), is the final level of      decided.
administrative review for claims filed
under Titles II and XVI of the Social        Our review identified steps the AC could take to further increase
Security Act. The AC’s role is to            productivity. For instance, the lack of productivity goals and caps
review administrative law judge (ALJ)        for AAJs or AOs processing requests for review cases, particularly
decisions and orders of dismissal,           given the wide range in the number of dispositions each AAJ and
either at the claimant’s request or on its   AO issued, increases the risk that AC managers may miss
own volition. When the AC conducts           opportunities to increase production as well as identify potential
a review, it may render the                  quality issues. In addition, while the AC has established
Commissioner’s final decision, issue         division-level productivity goals, some managers and staff were
an order of dismissal, or remand the         uncertain how these goals are established. Moreover, the Agency
case to an ALJ for further proceedings.      reduced the number of performance goals shared with the public.
                                             Finally, although the AC established quality control initiatives
Both administrative appeals judges           covering AC workloads, some of these initiatives were limited in
(AAJ) and appeals officers (AO) issue        duration or review results were undocumented. We also found the
actions on cases. AAJs issue                 quality review lacked a monitoring system to identify trends and
favorable, partially favorable,              collectively they did not cover all parts of the AC workload.
unfavorable, denial, dismissal, or
remand order actions while AOs only          Our Recommendations
issue denials. Before an adjudicator
decides the case, an analyst reviews the     We made a number of recommendations to (1) improve published
claimant’s file and provides a               performance goals, (2) establish adjudicator productivity goals,
recommendation to the adjudicator.           (3) enhance communication of internal goals, (4) formalize
                                             successful quality reviews, and (5) explore additional methods for
                                             conducting quality reviews of all relevant workloads.

                                             The Agency agreed with all of our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Requests for Review Trends ......................................................................................................2
           Requests for Review Workload Indicators ..........................................................................3
           Requests for Review Average Processing Times ................................................................4
           Requests for Review Aged Cases ........................................................................................6
           Factors Affecting Dispositions and Productivity .................................................................7
     Workload Performance Goals ..................................................................................................10
     AC Quality Reviews ................................................................................................................13
           AAJ Remands ....................................................................................................................13
           AAJ Two-Signature Policy ................................................................................................14
           AO Actions ........................................................................................................................14
           Analyst Recommendations ................................................................................................14
           Remands Related to Federal Court Appeals ......................................................................15
Conclusions ....................................................................................................................................15
Recommendations ..........................................................................................................................16
Agency Comments .........................................................................................................................16
Appendix A – Appeals Council Request for Review Business Process..................................... A-1
Appendix B – Office of Appellate Operations Organization Chart and Position Descriptions . B-1
Appendix C – Scope and Methodology ..................................................................................... C-1
Appendix D – Additional Data on Appellate Level Workloads ................................................. D-1
Appendix E – Technology Improvements at the Appeals Council .............................................E-1
Appendix F – Decisional Requirement Matrix For Appeals Council Adjudicators ................... F-1
Appendix G – Agency Comments .............................................................................................. G-1
Appendix H – Major Contributors.............................................................................................. H-1




Request for Review Workloads at the Appeals Council (A-12-13-13039)
ABBREVIATIONS
AAJ                  Administrative Appeals Judge

AC                   Appeals Council

ACAT                 Appeals Case Analysis Tool

ALJ                  Administrative Law Judge

AO                   Appeals Officer

APP                  Annual Performance Plan

APT                  Average Processing Time

ARPS                 Appeals Review Processing System

DDS                  Disability Determination Service

DPA                  Division of Program Adjudication

DQ                   Division of Quality

FY                   Fiscal Year

HALLEX               Hearings, Appeals, and Litigation Law Manual

OAO                  Office of Appellate Operations

ODAR                 Office of Disability Adjudication and Review

OIG                  Office of the Inspector General

OGC                  Office of General Counsel

OQP                  Office of Quality Performance

PAR                  Performance and Accountability Report

QRB                  Quality Review Branches

SAA                  Senior Attorney Adjudicator




Request for Review Workloads at the Appeals Council (A-12-13-13039)
OBJECTIVE
Our objective was to assess steps the Appeals Council (AC) had taken to reduce its pending
request for review workloads and related processing times.

BACKGROUND
The AC is part of the Social Security Administration’s (SSA) Office of Appellate Operations
(OAO). 1 OAO’s primary mission is to provide individuals seeking disability-related Social
Security benefits with a decision that is timely, accurate, fair, and in compliance with Social
Security laws, regulations, and policies. The AC is the final level of administrative adjudicatory
review for claimants appealing hearing-level decisions for Old-Age, Survivors and Disability
Insurance and Supplemental Security Income. As part of its duties, the AC also reviews a
sample of hearing-level decisions that were not appealed to determine whether they are factually
and legally supported. OAO uses this and other quality review data for feedback to adjudicators,
to improve training, and to clarify policies and procedures.

When the AC grants a claimant’s request for review, 2 it issues a decision, issues an order of
dismissal, or remands the case back to an ALJ for further proceedings. Both administrative
appeals judges (AAJ) and appeals officers (AO) adjudicate request for review cases. 3 AAJs can
issue favorable, partially favorable, or unfavorable decisions, denials of review, dismissals, or
orders of remand, while AOs can only issue denials of review. Before an adjudicator decides the
case, an analyst reviews the claimant’s file and provides a recommendation to the adjudicator.
Adjudicators, analysts, managers, and support staff are located in OAO’s Division of Program
Adjudication (DPA). 4 DPA has seven divisions that oversee 33 Disability Program Branches
and a Retirement and Survivors Insurance Branch. 5 Each division has its own analysts and
adjudicators. 6

To assess steps the AC has taken to reduce its growing backlog of requests for review cases and
related processing times, we interviewed OAO executives, managers, adjudicators, analysts, and
support staff. We also discussed the AC’s quality controls and initiatives. Finally, we analyzed
trends in AC key workload indicators from FYs 2007 to 2013 using information from the




1
    OAO is a component of SSA’s Office of Disability Adjudication and Review (ODAR).
2
    Request for Review of Hearing Decision/Order (SSA Form HA-520-U5).
3
    See Appendix A for a flowchart of the AC’s request for review business process.
4
    See Appendix B for an organization chart and a chart of DPA job duties.
5
    Each division’s workload is aligned with relevant Federal district courts.
6
 OAO has other divisions responsible for processing civil actions and conducting sample reviews of unappealed
hearing decisions.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                             1
Appeals Review Processing System (ARPS) database and related management information
reports. 7

RESULTS OF REVIEW
In FY 2013, AC request for review dispositions exceeded FY 2007 dispositions by about
102 percent. However, receipts were greater than dispositions during the same period, resulting
in a tripling of pending cases from about 53,000 to about 157,000 cases by the end of FY 2013.
The increase in pending claims resulted in longer average processing times (APT) at the end of
FY 2013, with claimants waiting about 364 days for an AC action, up from 227 days in FY 2007.
While SSA had an APT goal for AC workloads in prior years, SSA ended its annual reporting on
APT in FY 2012. During this same period, the AC focused its efforts on processing the oldest
cases in the backlog under the Agency’s Aged Case initiative and made progress in reducing the
average age of its pending claims. Moreover, the growth in the number of dispositions over this
7-year period follows the addition of adjudicators and staff as well as efforts to increase the
productivity of analysts and staff supporting adjudicators.

While OAO established numerical productivity goals for analysts, it did not establish similar
productivity goals for AC adjudicators, although it did have timeliness goals for its adjudicators.
In FY 2012, AAJ annual dispositions ranged from 780 to 3,471 cases. We found a similar range
with AO adjudicators. The lack of productivity goals and caps for AAJs or AOs, particularly
given the wide range in the number of dispositions each AAJ and AO issued, increases the risk
that OAO may miss opportunities to increase production as well as identify potential quality
issues. Finally, while OAO executives had created internal, division-level productivity goals for
every DPA division and communicated those goals with OAO managers, some managers and
staff were confused as to how those internal goals were determined.

The AC established quality control initiatives to review AAJ remands, AO actions, and analyst
recommendations. Although the AC established quality control initiatives covering AC
workloads, some of these initiatives were limited in duration or review results were
undocumented. We also found the quality review lacked a monitoring system to identify trends
and collectively they did not cover all parts of the AC workload. For instance, the AC had a
two-AAJ sign-off requirement for some actions, which provided a measure of quality control.
However, this requirement did not cover all the AAJ actions, and its scope was limited. As part
of its own business process, the Office of General Counsel (OGC) also provided a subsequent
quality check on AC actions appealed to the Federal courts, though these OGC cases were not
intended to be a representative sample of AC actions.

Requests for Review Trends
We reviewed trends in the request for review workloads from FYs 2007 to 2013. In addition, we
assessed AC actions to improve overall productivity during this period.


7
    See Appendix C for further information about our scope and methodology.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                               2
Requests for Review Workload Indicators
While AC request for review dispositions increased between FYs 2007 and 2013, receipts
continued to exceed dispositions until the middle of FY 2013 (see Figure 1). In FY 2007,
dispositions were about 87,000 cases, which increased to about 176,000 cases in FY 2013
(102 percent). During the same time, receipts increased from about 96,000 to approximately
173,000 per year (80 percent). 8 During our audit, 9 we noted receipts had leveled off at about
175,000 cases per year since FY 2011. As a result, for the first time in 6 years, dispositions
exceeded receipts in FY 2013.

                                      Figure 1: Request for Review Receipts and Dispositions
                                                    (FYs 2007 Through 2013)

                            200,000

                            180,000
          Number of Cases




                            160,000

                            140,000

                            120,000

                            100,000

                             80,000
                                       2007      2008      2009       2010       2011       2012          2013
                                                                   Fiscal Year

                                                        Receipts        Dispositions


The gap between receipts and dispositions during the 7-year period led to an increase in the
backlog. The number of pending cases almost tripled from about 53,000 in FY 2007 to
approximately 157,000 in FY 2013 (see Figure 2: ). As noted earlier, the AC was able to close
the gap between receipts and depositions, leading to a decrease in the pending request for review
case backlog in FY 2013.




8
    We also discuss increases in AC hiring and productivity during this same period in a later section.
9
    We conducted our review from December 2012 through September 2013.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                              3
                                    Figure 2: Growth in AC Pending Request for Review Cases
                                                   (FYs 2007 Through 2013)


                          180,000
                                                                                       161,070   157,311
                          160,000
                                                                          153,004
                          140,000

                          120,000
        Number of Cases




                                                               106,664
                          100,000
                                                      80,040
                           80,000
                                             62,210
                           60,000   53,163

                           40,000

                           20,000

                               0
                                2007         2008       2009       2010         2011     2012      2013
                                                                 Fiscal Year

We could not identify any Agency-published request for review backlog goals for the AC based
on the number of available adjudicators and staff to process these cases. In the Agency Strategic
Plan for FYs 2008 to 2013, 10 SSA had a strategic goal to “Eliminate Our Hearings Backlog and
Prevent its Recurrence,” and set a goal for initial hearings of 466,000 cases by the end of
FY 2013. However, the Agency did not establish a goal for the number of request for review
cases pending in the AC backlog. Instead, SSA acknowledged that efforts to reduce the hearings
backlog would result in increased AC receipts. The Agency Strategic Plan stated, “We will
closely monitor the Appeals Council workload and take necessary actions to prevent backlogs at
that level and reduce the amount of time it takes to receive an Appeals Council decision.” 11 That
said, the Agency Strategic Plan for FYs 2013 to 2016 does not mention the AC workloads. 12

Requests for Review Average Processing Times
From FYs 2007 through 2012, request for review APT rose steadily from 227 to 395 days (see
Figure 3). APT improved in FY 2013, decreasing to 364 days.


10
     SSA, Strategic Plan Fiscal Year 2008 – 2013, September 2008.
11
     Id. at p.10.
12
  SSA, Agency Strategic Plan, Securing Value for America, Fiscal Years 2013 – 2016, released February 2012. We
also examined SSA’s FY 2013 Annual Performance Plan (APP) and found that SSA does not have a published goal
for the number of pending claims at the AC, while other disability workloads have such goals. See Appendix D for
more on these published goals.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                            4
                                   Figure 3: Trends in Request for Review APT
                                             (FYs 2007 Through 2013)


                           450


                           400
                                                                             395
          Number of Days




                           350                                                         364
                                                                     360
                                                          345
                           300


                           250
                                                261
                                 227    238
                           200
                                 2007   2008    2009      2010       2011   2012       2013
                                                       Fiscal Year

SSA established APT performance targets for request for review cases in six of the FYs in our
audit period in its APP (see Table 1). However, SSA discontinued the APT performance
measure in FY 2012 and did not report on the goal in its FY 2012 Performance and
Accountability Report (PAR). 13 In SSA’s FY 2013 APP, SSA explained that it eliminated the
APT goal because “We have successfully reduced Appeals Council average processing time over
the last few years and want to now focus on eliminating Appeals Council cases pending 365 days
or over.” 14 However, as shown in Table 1, APT had increased over the last few years.




13
  The APP represents the Agency’s goals for the upcoming FY, whereas the PAR is the Agency’s report on those
goals at year-end.
14
  SSA, Annual Performance Plan for Fiscal Year 2013 and Revised Final Performance Plan for Fiscal Year 2012,
February 2012, p. 71.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                            5
                                    Table 1: AC Request for Review APT
                                    Performance Goal Versus Actual APT
                                          (FYs 2007 Through 2013)
                                    FY             APT Goal1            Actual APT
                                   2007                242                   227
                                   2008                290                   238
                                   2009                242                   261
                                   2010                370                   345
                                   2011                370                   358
                                   2012                340                   395
                                   2013                N/A                   N/A
                            Note 1: APT goals as published in the annual APP. The FY 2012 goal
                            was later withdrawn and not reported in the FY 2012 PAR.

We believe having a timeliness goal would inform the public about the expected timeliness of
AC case processing. 15 While we understand that various circumstances, such as AC receipts, are
outside of the Agency’s control, timeliness goals should be part of SSA’s overall strategic
framework to identify the necessary resources to eliminate such backlogs.

Requests for Review Aged Cases
The average age of pending (AAP) for AC request for review cases has decreased in recent
years. From FYs 2010 to 2013, AAP decreased from 233 days to 202 days. 16 OAO attributes
this decrease to its Aged Case initiative, started in 2007, where the AC targeted the oldest cases
in the backlog for processing. OAO also attributed the decrease to its case management
approach based on data analysis, in which it worked cases in groups based on criticality and
complexity. In FY 2013, the AC focused on cases that would be 545 days or older by the end of
the FY, 17 completing 99.74 percent of them by the end of the FY. We commend the Agency for
its efforts on older cases.

In its FY 2013 APP, SSA established a goal to have less than 19 percent of pending requests for
review at 365 days or older by the end of the FY. 18 Compared to the FY 2012 aged case goal, the
FY 2013 aged pending goal decreased from 20 to 19 percent, while the target age of pending




15
  In FY 2013, SSA published a performance goal for APT at the hearings level. Id. at p.6 and 14. See Appendix D
for more on hearing-level performance goals.
16
     SSA, Average Age of Pending national report for FY 2013, ARPS.
17
  We completed an audit of the Aged Case initiative at the hearing level. For further information, please see our
report, Aged Claims at the Hearing Level (A-12-08-18071), September 25, 2009
18
     Supra note 11, at p. 15.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                 6
cases stayed at 365 days. 19 The AC ended FY 2013 with 9 percent of pending requests for
review at 365 days or older. 20

Factors Affecting Dispositions and Productivity
Since FY 2007, the AC has added 60 adjudicators as well as 265 managers, analysts, and support
staff to process AC workloads (see Table 2). 21 This growth contributed to an increase in
dispositions over this same period.

                 Table 2: AC Employees Assigned to Request for Review Workload
                                   (FYs 2007 Through 2012)
                                                                                     Request for
                                                                      Staff Per
                       FY          Adjudicators1        Staff2                         Review
                                                                     Adjudicator
                                                                                     Dispositions
                      2007              NA              446              NA             87,129
                      2008               55             453              8.2            83,407
                      2009               96             558              5.8            89,066
                      2010               91             660              7.3           102,062
                      2011              112             725              6.5           126,992
                      2012              115             711              6.2           166,020
                Note 1: OAO was unable to provide adjudicator figures for FY 2007. In addition,
                        throughout the 6-year period, adjudicators could be working on a variety
                        of workloads.
                Note 2: These counts include managers, analysts, and support staff.

Overall, AC productivity was higher in FY 2012 than it was in FY 2008 (see Figure 4), from
164 cases per employee to 201 cases per employee, though overall productivity dropped in the
intervening years.




19
  SSA’s FY 2013 aged pending goals for hearing level cases was less than 0.5 percent pending cases 700 days or
older by the end of the FY. Supra note 11, at p. 14. See Appendix D for additional information on these
performance measures.
20
     OAO, Executive Director’s Broadcast (OAO Newsletter), November 1, 2013, p. 1.
21
   OAO hired an additional 50 adjudicators and analysts in FY 2010 for the newly created Division of Quality (DQ).
DQ provides operational support to the AC in its quality review responsibilities overseeing SSA’s national appeals
program for claims filed under Titles II and XVI of the Social Security Act, as amended. DQ provides advice and
recommendations on individual cases and the application of Social Security regulations and rulings. DQ also
conducts focused reviews on ALJ-related issues to ensure compliance with SSA policies and procedures. While
staff assigned to DQ focus on quality reviews, they occasionally assist DPA with its workload. OAO established the
DQ during a time of increased public and congressional attention related to ALJ workloads. For more information,
see Congressional Response Report: The Social Security Administration’s Review of Administrative Law Judges’
Decisions (A-07-12-21234), March 2012.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                              7
                                                       Figure 4: AC Request for Review Productivity
                                                                 (FYs 2008 Through 2012)

                                      220
 Request for Review Per AC Employee




                                      200                                                                            201

                                      180

                                                 164
                                      160
                                                                                                    152
                                      140
                                                                 136                136
                                      120

                                      100
                                             2008             2009             2010             2011             2012
                                                                           Fiscal Year

When we removed the adjudicators, we found the number of dispositions per adjudicator
dropped in FY 2009 before rising annually through FY 2012. However, by the end of FY 2012,
adjudicator productivity had not reached the FY 2008 disposition level (see Table 3).

                                                Table 3: Trends in AC Request for Review Productivity
                                                              (FYs 2007 Through 2012)
                                                                        Request for Review         Request for Review
                                                       FY                Dispositions per         Dispositions per Staff
                                                                           Adjudicator1                Member2
                                                     2007                       NA                         195
                                                     2008                      1,516                       184
                                                     2009                       928                        160
                                                     2010                      1,121                       155
                                                     2011                      1,134                       175
                                                     2012                      1,444                       234
                                            Note 1: OAO was unable to provide adjudicator figures for FY 2007. In addition,
                                                    during this period, adjudicators could be working on a variety of workloads.
                                            Note 2: These counts include managers, analysts, and support staff. These individuals
                                                    were permitted to work overtime, whereas AAJs are not.

The decrease in adjudicator dispositions in FY 2009 coincided with the lowest
staff-per-adjudicator ratio that year (see Table 2). A higher staff-to-adjudicator ratio in other
years may have contributed to greater adjudicator productivity. Moreover, until the end of
FY 2011, the AC was adjusting to a significant increase in new adjudicators and staff, which

Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                                 8
may have affected productivity. As an SSA official noted in prior testimony, new hires tend to
decrease short-term productivity since training can be a lengthy and resource-intensive process,
whereas more experienced employees assisting with training and mentoring will have less time
to process their own work. 22

OAO managers attributed the increased productivity in recent years to (1) hiring attorneys who
quickly become proficient in the job, (2) productivity goals, and (3) an improved training
program. In the past, OAO hired paralegals for the analyst positions. However, since FY 2009,
OAO has hired only attorneys for its analyst positions. One supervisor told us the new hires had
boosted productivity, while another supervisor attributed productivity increases to the strong
writing skills of the new hires.

In FY 2007, the AC created productivity goals for its analysts. 23 The AC established a unique
numerical time credit for each type of request for review case (that is, favorable, unfavorable,
denial, dismissal, and remand) the analyst recommended. This allowed an analyst’s manager to
track the time credits to ensure the analysts achieved a minimum level of productivity. 24 Once an
analyst had 3 years’ experience, management increased the productivity requirements.
Additionally, the AC established benchmarks for timely processing of request for review cases.
Depending on their grade and experience levels, analysts had 10 to 15 days to process each case.
A supervisor told us the minimum productivity score encouraged greater productivity because it
gave analysts a clear productivity expectation. Another supervisor cited the productivity goals
for analysts as a significant factor in the increased productivity.

OAO managers also stated that OAO modified training for new analysts in FY 2010, which they
believed contributed to analyst productivity. While the original training was primarily classroom
instruction, the modified training was an integrated, multi-modal, interactive program. 25 For
example, the training provides hands-on experience on the electronic folder, the ARPS database
control system, and the Appeals Case Analysis Tool (ACAT). 26 OAO training staff stated the
organization continually updated its training programs based on manager and analyst feedback.
After the introductory training, the analyst worked with a mentor until the quality of the analyst’s




22
 Oversight Hearing on SSA’s Use of Recovery Funds, Prepared Statement of Mary Glenn-Croft, Deputy
Commissioner for Budget, Finance, and Management before the Subcommittee on Social Security, House
Committee on Ways and Means, April 28, 2009.
23
  To determine an OAO analyst’s productivity, OAO breaks out the type of casework they perform and weighs
different types of cases based on the average length of time required to process the case.
24
  The target productivity score during this period was 70 percent, meaning the analyst was spending a minimum of
70 percent of their time processing case recommendations. Other time may be spent in training, administrative
duties, research, and other activities.
25
  In 2011, OAO received the W. Edwards Deming Award from the U.S.D.A. Graduate School, now the Graduate
School USA. This annual award is presented in recognition of a workforce development and training initiative that
has measurably improved an organization’s performance.
26
     See Appendix E for further information about technology improvements at the AC.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                 9
work reached a certain threshold. In addition, OAO created an online library of training
materials for new and existing analysts.

Workload Performance Goals
While the AC established individual productivity goals for its analysts, it had not established
similar productivity goals for its adjudicators. ODAR established the ALJ annual goal of 500 to
700 dispositions in October 2007, as well as a cap on annual productivity beginning in FY 2012.
For FY 2014, the annual disposition cap is 840 dispositions. While there is no similar
productivity goal for AC members, they are subject to performance plans that do include
timeliness goals. Our review of AC adjudicator productivity in FY 2012 found wide ranges in
the number of dispositions issued by AAJs and AOs.

For instance, in FY 2012, the 74 AAJs issued about 81,000 dispositions. However, the number
of dispositions per AAJ dedicated to request for review work ranged widely from 780 to 3,471.
The median number of dispositions issued was 1,283 (see Figure 5).

                                               Figure 5: Range in AAJ Dispositions
                                                           (FY 2012)

                    18
                                                                     Median 1,283 Dispositions
                    16

                    14
   Number of AAJs




                    12

                    10

                    8

                    6

                    4

                    2

                    0


                                                                Dispositions

                         Note: We excluded 23 AAJs because their primary duties were other than adjudicating cases. We also
                               excluded 2 AAJs with more than 2,000 dispositions because they were AOs for most of FY 2012.
                               Moreover, we only examined A judge dispositions, which we discuss later in this report.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                      10
Two AAJs issued over 3,000 dispositions in FY 2012, about 12 dispositions per day. 27
Variations in AAJ dispositions could relate to a number of factors, including the following.

•      Some AAJs had duties other than adjudicating request for review cases, such as adjudicating
       other types of workloads, working in the front office, managing divisions, and other special
       projects.

•      Some AAJs may have worked only part of the year on dispositions because they were hired
       or departed during the year.

•      The mix of cases available to AAJs may differ, since some divisions had fewer AOs to
       process denials. 28

•      An AAJ’s workload is partly dependent on the speed and quality of the analyst’s work.

We also found a wide range in the number of dispositions issued by the AOs. The 46 AOs
issued about 79,000 dispositions in FY 2012, with a median of 2,049 dispositions per AO.
However, AO dispositions ranged widely from 625 to 3,386 (see Figure 6). Four AOs issued
more than 3,000 dispositions in FY 2012. As noted earlier, this totals about 12 dispositions per
day.




27
     We estimate about 250 available workdays per year.
28
     For instance, the average favorable decision takes longer to process than the average denial action.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                         11
                                              Figure 6: Range in AO Dispositions
                                                          (FY 2012)

                        9
                                                                      Median 2,049 Dispositions
                        8

                        7

                        6
        Number of AOs




                        5

                        4

                        3

                        2

                        1

                        0


                                                               Dispositions

                        Note: We excluded 11 AOs because they worked in other areas of OAO and issued dispositions
                              part-time.

When we asked about the lack of individual productivity goals and caps for AC adjudicators,
OAO managers stated adjudicators processed cases differently than ALJs at the hearings level.
They stated that it was more effective to set productivity goals for analysts than adjudicators
because productivity goals for analysts were established to ensure cases were being processed
efficiently before adjudicator review. In addition, they stated OAO and each DPA division had
continually met annual and quarterly goals and therefore there was no need to establish
productivity goals for its adjudicators. Moreover, unlike ALJs at the hearing level, every AAJ
and AO is subject to a performance plan with clear workload expectations. 29

OAO managers also noted that, despite the lack of an individual numerical goal and cap, AAJs
are subject to some timeliness benchmarks. An A judge (the first AAJ to review the case) is
expected to clear the case within 30 days, while a B judge (the second AAJ to review the case) is
expected to clear the case within 5 days.

While OAO has some supervisory measures in place to manage AC adjudicator workloads, we
believe OAO managers should consider establishing uniform productivity goals and caps for
adjudicators processing request for review cases for the periods they are assigned this workload.


29
  Per 5 C.F.R. 930.206(a), in terms of workloads, the Office of Personnel Management’s regulations provide that an
agency may not rate the job performance of an ALJ.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                  12
An organization’s ability to track progress toward its goals ensures that everyone is equally
contributing and helps determine whether a different level of productivity is possible. In
addition to goals, productivity caps help ensure a greater focus on quality. For instance, by not
having a productivity cap, the AC might be overlooking potential quality issues related to the
dispositions made by its high-producing adjudicators.

Even though the AC had focused on annual and quarterly goals for each DPA division, during
our interviews, we learned some managers and staff were uncertain about how the productivity
goals for each division were established. For instance, one manager thought the division’s
productivity goals were based on staffing levels and staff experience but was not certain.
Another manager stated that OAO headquarters set the goals but had no idea how the goals were
established. Similarly, one analyst stated the division had productivity goals, but the analyst was
not sure how the goals were determined. Although the AC had made efforts to communicate
how the goals were established to the management team, greater clarification concerning the
goal-setting process could contribute to both increased understanding and support for those
goals.

AC Quality Reviews
The AC has established quality control initiatives to review AAJ remands, AO actions, and
analyst recommendations. However, some of these initiatives were limited in duration or review
results were undocumented. We also found the quality review lacked a monitoring system to
identify trends and collectively they did not cover all parts of the AC workload. We believe
OAO should review and formalize the successful elements of the existing quality review process
for all types of AC actions, and monitor quality trends to demonstrate improvement as well as
areas in need of greater attention. Moreover, OAO should also explore additional methods for
conducting quality reviews of the AC workload to ensure all relevant workloads are covered.
We describe each of the AC quality review initiatives below.

AAJ Remands
In July 2012, the AC implemented a Remand Feedback initiative to offer ALJs the opportunity to
refer back to the AAJs those remands they believed were unclear; noncompliant with policy; or,
while technically correct, contained only insignificant errors that would not likely result in a
Federal court remand. AC managers said the initiative’s goals were to identify specific issues,
such as inconsistent application of SSA policy, and suggest training needs at both the AC and
hearing levels. As of May 2013, the initiative had resulted in 50 remand referrals. However,
OAO managers did not have any formal reports that could be shared with us at the time of our
audit, which limited our ability to learn more about the effectiveness of this initiative and
potential improvements to the remand process over time.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                 13
AAJ Two-Signature Policy
The AC had a policy requiring that two AAJs sign off on favorable decisions, unfavorable
decisions, or remands. 30 In these cases, the first AAJ to review the case is the A judge. The
A judge has 30 days to decide the case. The second AAJ to review the case is the B judge, and
their decision is due within 5 days. If the A and B judges disagree, the case goes to an
adjudicator C judge. 31

AC managers said the reviews were limited to identifying a legal error and not designed to
adjudicate the case, allowing some adjudicators to process a B case in about 5 minutes. At the
time of our review, the AC had a workgroup studying the role of adjudicator B as well as ways to
enhance communication between the parties involved in the process. Since the two-signature
policy does not cover AAJ denials and dismissals, OAO may want to consider a cost-effective
quality review process that would cover all types of AAJ actions in its current review of the
two-signature policy. 32

AO Actions
In FY 2005, the AC established an In-line Quality Review of AO Actions initiative to review
AOs’ adjudicatory actions. 33 A cadre of nine AOs, serving as a peer review, determines whether
AOs followed administrative case procedures. However, AC managers stated this workgroup
was a special, temporary AC initiative, not a permanent part of the AC’s business process.
Moreover, the workgroup had not produced written reports that identified trends in decision
making. 34 As a result, we were unable to determine the effectiveness of this initiative. 35

Analyst Recommendations
Since FY 2005, OAO has periodically reviewed a 1-percent sample of analyst recommendations
to evaluate the quality of analyst decision making. Branch Chiefs randomly select completed
analyst recommendations and assign the cases to a technical assistant for review. 36 Technical


30
  See Appendix F for more information about the number of adjudicators and what type of adjudicators are needed
for each type of recommendation.
31
     In FY 2012, of 80,762 AAJ actions, we identified only 5 that required a judge C sign-off.
32
  We estimate that AAJs processed approximately 55,000 denials and dismissals in FY 2012, representing about
33 percent of the FY 2012 AC request for review dispositions.
33
     As noted earlier, AOs can only process denial actions.
34
  In our previous review of the AC Process Improvement Action Plan, we found that OAO did not track the
effectiveness of most of its initiatives at that time. See our report, Appeals Council Process Improvement Action
Plan (A-12-02-12015), January 2004.
35
  In addition to the quality review of AO actions, an AO’s work is also reviewed by their supervisor on a regular
basis. See Appendix B for more information about the AO position.
36
  In addition to performing this review, the TA acts as a mentor to attorney advisers and paralegal specialists as well
as processes recommendations for the AC. See Appendix B for more information about the TA position.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                                 14
assistants hold the cases until the quality review is completed. After completing the case review,
the technical assistant reports the findings to the Branch Chief using an automated online form.
Branch managers report the results to the OAO Executive Director and Deputy Executive
Director. According to OAO managers, the technical assistant’s quality review findings improve
the quality of the analyst recommendations, identify decision-making trends, and highlight
training that might be needed. As with some of the earlier quality reviews, OAO managers did
not have any formal reports that could be shared with us at the time of our audit, limiting our
ability to learn more about the effectiveness of this initiative and potential improvements to the
remand process over time.

Remands Related to Federal Court Appeals
While not a quality review of a random set of cases, SSA’s OGC provides a de facto quality
review of denied and dismissed cases appealed to the Federal district courts. 37 If a claimant
disagrees with the AC’s action, the claimant can file a civil action with the Federal district court.
OGC reviews the original ALJ decision and assesses the case for its potential defensibility before
the Federal courts. If OGC believes there is a deficiency or error in the ALJ decision, it writes a
voluntary remand memorandum asking the AC to review the case again instead of defending the
case in Federal court. The voluntary remand process is informal, and the AC makes the ultimate
decision on whether to accept the voluntary remand and on what basis. 38 If OGC believes the
case is defensible, it prepares and submits a brief to the Federal court, which reviews the
administrative record. If the Federal court identifies any deficiencies or errors in the original
ALJ decision, it can remand the case back to the Agency, where it is handled by the OAO
Division of Civil Actions. The AC captures the reasons for the Federal court remands so it can
use the information to update employee training.

CONCLUSIONS
The AC’s pending case backlog and APT have increased significantly since FY 2007. However,
additional hiring and increased staff productivity has led to an increase in dispositions and has
enabled the AC to catch up with its current workload. Greater focus on aged cases has also
benefited claimants waiting the longest for their cases to be decided. Nonetheless, we believe
publishing clear workload goals, setting uniform adjudicator productivity goals and caps, and
establishing well-documented quality processes will assist the AC in the future. While SSA had
an APT goal for AC workloads in prior years, SSA ended its annual reporting on APT in
FY 2012. In addition, the lack of productivity goals and caps for AAJs or AOs, particularly



37
     About 12 percent of AC actions are appealed to the Federal Courts.
38
  Per HALLEX I-4-2-32 – Additional Evidence Affects the Defensibility of the Pending Court Case (last updated
September 13, 2005), if the AC agrees with the recommendation to seek voluntary remand of the pending court case,
the AC prepares a memorandum to OGC setting forth the reasons, including good cause, for seeking remand of the
case and the action the AC proposes to take upon remand. If the AC disagrees with the recommendation to seek
voluntary remand of the pending court case, the AC prepares a memorandum to OGC setting forth the AC's reasons
for concluding that the case still should be defended.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                           15
given the wide range in the number of dispositions each AAJ and AO issued, increases the risk
that OAO may miss opportunities to increase production as well as identify potential quality
issues. While OAO had established internal division-level productivity goals, some managers
and staff were uncertain about how these goals are established. Finally, although the AC had
established quality control initiatives covering AC workloads, some initiatives were temporary or
lacked a monitoring system to identify trends and improvements. We also found initiative
workgroups did not produce written reports and the reviews did not cover all parts of the AC
workload.

RECOMMENDATIONS
To improve the AC’s ability to measure and monitor key workloads, we recommend the Agency:

1. Revisit the appellate-level performance goals shared with the public to ensure they provide
   sufficient information about the AC’s performance processing request for review workloads.

2. Consider establishing uniform individual productivity goals and caps for AC adjudicators for
   the time they spend processing request for review cases.

3. Improve communication of AC quarterly and annual performance goals with adjudicators,
   managers, and staff to instill a greater understanding of organizational goals.

4. Review and formalize successful parts of the existing quality review process for request for
   review workloads, and monitor trends to demonstrate improvement as well as areas in need
   of greater attention.

5. Explore additional methods for conducting quality reviews of the AC request for review
   workload to ensure all relevant adjudicative actions are covered.

AGENCY COMMENTS
The Agency agreed with all of our recommendations. See Appendix G for the full text of SSA’s
comments.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                               16
                                       APPENDICES




Request for Review Workloads at the Appeals Council (A-12-13-13039)
Appendix A – APPEALS COUNCIL REQUEST FOR REVIEW
             BUSINESS PROCESS
When the Appeals Council (AC) receives a request for review (appealed case), 1 it gives the case
to a legal assistant. The legal assistant screens the case, checks for any special requests, and
associates all pertinent documents with the case file. The legal assistant prepares the case for the
analyst to review. The analyst (either an attorney adviser or a paralegal specialist) reviews the
case file and, as appropriate, further researches the case. The analyst independently formulates
his/her recommendations. After the analyst reviews the case, they formulate a comprehensive
recommendation and send it to the adjudicator (either an AAJ or AO) in writing (see Figure A–1
for a flowchart diagram of the process).

If the analyst recommends a denial, the recommendation usually goes to an AO. An AO has the
authority to review recommendations to deny review and subsequently issue a denial action. An
AO does not have the authority to issue other types of actions (grant review, favorable decision,
partially favorable decision, unfavorable decision, dismissal, or remand). However, should a
case sent to an AO for denial need additional review, the AO can recommend the case to an AAJ.

Any type of analyst recommendation can go to an AAJ. An AAJ has the authority to issue all
types of actions/decisions (favorable decision, partially favorable decision, unfavorable decision,
dismissal, denial, or remand order). The AAJ reviews the ALJ’s decision from the hearing level
and then renders SSA’s final administrative disposition on the case. Denial and dismissal actions
require only one AAJ signature, whereas all other types of actions require two AAJ signatures
(see Appendix F).

After the case is adjudicated, legal assistants send notices to the claimant and representative and
file the case in OAO’s records.




1
    Request for Review of Hearing Decision / Order (SSA Form HA-520-U5)



Request for Review Workloads at the Appeals Council (A-12-13-13039)                              A-1
     Figure A–1: Flowchart of Business Process for Processing AC requests for review




Request for Review Workloads at the Appeals Council (A-12-13-13039)                    A-2
Appendix B – OFFICE OF APPELLATE OPERATIONS
             ORGANIZATION CHART AND POSITION
             DESCRIPTIONS
               Figure B–1: Office of Appellate Operations Organization Chart




Request for Review Workloads at the Appeals Council (A-12-13-13039)            B-1
         Figure B–2: Division of Program Adjudication I – VII Organization Chart




     Table B–1: Position Descriptions for Division of Program Adjudication Employees
              Title                                        Position Description
 Division Chief               The Division Chief Administrative Appeals Judge (DCAAJ)
 Administrative Appeals Judge supervises the administrative appeals judges (AAJ) and
                              administrative officers (AO) in his/her Division. The DCAAJ can
                              also review administrative law judge (ALJ) decisions and render
                              SSA’s final administrative disposition.

                                  In the DCAAJ’s supervisory capacity, he/she is responsible for
                                  checking and balancing caseloads and ensuring cases are not backed
                                  up anywhere. The DCAAJ uses management information to assist in
                                  accomplishing these tasks.

                                  The DCAAJ is also responsible for planning training for the AAJs
                                  and AOs in his/her Division.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                  B-2
              Title                                        Position Description
 Administrative Appeals Judge The AAJ reviews ALJ decisions and renders the Agency’s final
                              administrative disposition. As part of the Appeals Council (AC), the
                              AAJ also provides direction and guidance to the hearing organization.
                              Each AAJ can direct ALJs to take corrective action in case-related
                              matters. The AAJ position is a non-supervisory position. The AAJ
                              must be in good standing and authorized to practice law by a Bar in
                              the United States.
 Appeals Officer              An AO works under the administrative supervision of the Supervisory
                              Attorney Adviser or is assigned to an AAJ.

                                  An AO reviews recommendations to deny requests for review of ALJ
                                  decisions, and, at his or her discretion may deny the request for
                                  review of the ALJ’s decision or dismissal.

                                  When the AO decides to grant a request for review, he/she forwards
                                  the case with an analysis and recommendation to an AAJ for
                                  consideration.

                                  An AO exercises independent judgment in individual cases, while
                                  being subject to program guidance and adjudication direction from an
                                  AAJ.
 Division Director                A Division Director serves as the director of an operation division
                                  that includes several Disability Program Branches (DPB), a
                                  Retirement and Survivors Insurance and Supplemental Security
                                  Income Branch and/or Court Case Preparation and Review Branches.
                                  A Division Director serves as first- or second-line supervisor for a
                                  staff of professional, technical, and clerical support employees in
                                  grades general schedule 4 through 14. A Division Director is
                                  responsible for managing a workload operation responsible for
                                  administrative appeals and/or court cases arising in one or more
                                  judicial circuits.
 Branch Chief                     The branch chief is responsible for supervising, directing, and
                                  coordinating the work activities of a DPB, which consists of analysts,
                                  one technical assistant, and six support staff. The branch chief
                                  performs direct supervisory functions over 25 employees. The
                                  branch chief position directs the work of analysts and support staff
                                  handling cases within the DPB’s assigned area or the Retirement and
                                  Survivors/Supplemental Security Income Branch’s assigned area.

                                  The branch chief position is also responsible for providing
                                  information and technical advice to AAJs on complex issues
                                  involving questions of Office of Appellate Operations (OAO), Office
                                  of Disability Adjudication and Review (ODAR), and Social Security
                                  policies and procedures. The branch’s mission is to provide staff
                                  assistance to the AC in all program areas.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                    B-3
              Title                                        Position Description
 Attorney Adviser (Analyst)       An attorney adviser analyzes, researches, and formulates
                                  comprehensive recommended actions, including decisions, on behalf
                                  of the AC. An attorney adviser acts independently in formulating
                                  his/her recommendations and provides those recommendations in
                                  writing with additional oral advice or consultation as necessary.

                                  Adjudicators first review the case only after the attorney adviser (or
                                  paralegal specialist) has reviewed the record and has prepared an
                                  analysis and proposed action.

                                  An attorney adviser also is responsible for reviewing new court cases,
                                  court remands, and requests for voluntary remand initiated by the
                                  Office of General Counsel.
 Paralegal Specialist (Analyst)   A paralegal specialist analyzes, researches, and formulates
                                  comprehensive recommended actions, including decisions, on behalf
                                  of the AC. A paralegal specialist acts independently in formulating
                                  his/her recommendations and provides those recommendations in
                                  writing with additional oral advice or consultation as necessary.

                                  Adjudicators first review the case only after the paralegal specialist
                                  (or attorney adviser) has reviewed the record and has prepared an
                                  analysis and proposed action.

                                  A paralegal specialist also is responsible for reviewing new court
                                  cases, court remands, and requests for voluntary remand initiated by
                                  the Office of General Counsel.
 Technical Assistant              The primary function of the position is to provide technical assistance
                                  to the branch chief by reviewing a sample of analysts’ final action
                                  documents and recommendations. This is to ensure the quality,
                                  timeliness, and consistency of the Branch’s work products, and the
                                  legal sufficiency of final products prepared for release by the AC.

                                  The technical assistant also acts as a mentor to attorney advisers and
                                  paralegal specialists.

                                  Technical assistants can also prepare recommendations to the AC
                                  adjudicators.
 Legal Assistant                  The legal assistant provides legal and technical support to the AC in
                                  the processing of reviews of decisions and dismissals rendered by
                                  ALJs.

                                  The legal assistant is responsible for developing and processing an
                                  appeal from its receipt to its completion, independently performing a
                                  wide range of case development actions.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                        B-4
Appendix C – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed Social Security Administration (SSA) policies, procedures, and Hearings, Appeals
    and Litigation Law Manual guidelines that pertain to the Appeals Council (AC) workloads.

•   Reviewed prior Office of the Inspector General reports, Congressional Research Service
    reports, and Administrative Conference of the United States reports on the AC.

•   Reviewed relevant SSA testimony before Congress.

•   Reviewed OAO management initiatives designed to reduce the AC backlog and processing
    times.

•   Reviewed SSA’s Performance and Accountability Reports, Electronic Key Workload
    Indicator reports, and Fiscal Year (FY) 2007 to 2013 request for review data from the AC’s
    Appeals Review Processing System to obtain key workload information on OAO’s pending
    case levels, average processing times, dispositions, receipts, and average age of pending.

•   Interviewed OAO executives, administrative appeals judges (AAJ), division chief AAJs,
    appeals officers, attorneys, paralegal specialists, technical assistants, division directors,
    branch chiefs, legal assistants, supervisory legal assistants, as well as managers from the
    OAO’s Division of Quality Review.

•   Interviewed managers from SSA’s Office of General Counsel.

•   Met with OAO managers to receive a demonstration of management information systems
    that pertain to the AC workload.

We found the FYs 2007 to 2013 appeals data used in this review to be sufficiently reliable to
meet our objective. The entity audited was the OAO under the Deputy Commissioner of
Disability Adjudication and Review. We conducted this performance audit from December 2012
through September 2013 in accordance with generally accepted government auditing standards.
Those standards require that we plan and conduct the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                 C-1
Appendix D – ADDITIONAL DATA ON APPELLATE LEVEL
             WORKLOADS
In Fiscal Year (FY) 2013, the Appeals Council (AC) had one performance goal in the Agency’s
Annual Performance Plan (APP): to reduce the number of aged cases in its backlog. We found
other levels of the Social Security Administration’s (SSA) disability process have multiple
annual performance goals.

Aged Case Goal
The one annual performance goal for the AC in the FY 2013 APP was to have less than
19 percent of pending request for review cases at 365 days or older by the end of the FY. 1
Compared to the FY 2012 aged pending cases performance goal, the FY 2013 aged pending
cases performance goal decreased from 20 to 19 percent of its pending cases, while the age of
pending target stayed at 365 days old (see Table D–1).

                      Table D–1: Trends in Pending Aged Cases at the AC
                                                                                                  Met
          FY                              Annual Performance Goal
                                                                                                  Goal
                   To have less than 1 percent of pending request for review
         2010                                                                                      Y
                   cases 700 days or older
                   To have less than 1 percent of pending requests for review
         2011                                                                                      Y
                   cases 650 days or older
                   To have less than 20 percent of pending request for review
         2012                                                                                      Y
                   cases 365 days or older
                   To have less than 19 percent of pending request for review
         2013                                                                                      Y
                   cases 365 days or older
     Note: The percentage is derived by dividing the total number of AC cases pending at the target number of
           days or over at the end of the FY, by the total number of AC cases pending at the end of the FY.

Because of their focus on aged cases, the Agency has reduced the average pending time on
appealed cases (see Table D–2). At the end of FY 2010, a claimant who had a hearing and then
appealed had an average pending time of 458 days (225 days at the hearings level, 233 days at
the appeals level); at the end of FY 2013, this figure was 423 days (221 days at the hearings
level, 202 days at the appeals level)—an 8-percent decrease.




1
 SSA, Annual Performance Plan for Fiscal Year 2013 and Revised Final Performance Plan for Fiscal Year 2012,
February 2012, p 15.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                             D-1
                   Table D–2: Trends in Average Age of Pending Cases at the
                               Hearings and Appellate Levels
                                                            AAP at the         Total AAP
                                        AAP at the          Appellate         Hearings and
                         FY              Hearings             Level             Appeals
                                       Level (Days)
                                                             (Days)             (Days)
                        2010                225                233                458
                        2011                200                221                421
                        2012                216                201                417
                        2013                221                202                423

Multiple Performance Goals at Other Levels of the Disability Process
While the AC had one annual performance goal in FY 2013, other levels of SSA’s disability
process had multiple performance goals. For example, the Agency had hearing-level
performance goals for dispositions, production per work year, average processing time (APT)
and aged cases (see Table D–3). In addition, the Agency had more than one performance goal
for cases at the disability determination services (DDS) and the reconsideration levels.

            Table D–3: Annual Performance Goals for SSA’s Disability Program
                                      (FY 2013)
   Performance Goal                   DDS           Reconsideration           Hearings               AC
      Dispositions                 2,970,000           803,000                836,000              No Goal
  Production per Work
                                      318                No Goal                 112               No Goal
         Year1
        Pending                     796,000              179,000              No Goal              No Goal
                                                                             380 days
           APT                     107 days              No Goal            (September             No Goal
                                                                               only)
                                                                             Less than            Less than
                                                                            0.5 percent         19 percent of
                                                                           pending cases        pending cases
  Age of Pending Cases             No Goal               No Goal
                                                                            700 days or          365 days or
                                                                            older by the       over by the end
                                                                           end of the FY          of the FY
Note: At the DDS, this indicator represents the number of all DDS cases produced per work year expended. At the
      hearings level, this indicator represents the average number of hearings completed per direct work year used.
      A direct work year represents actual time spent processing cases.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                                            D-2
Under the Government Performance and Results Act, agencies are required to establish
performance goals and express goals in an objective, proven and measurable form. 2 SSA’s APP
and Performance and Accountability Report (PAR) provides full disclosure of its financial and
programmatic operations and discusses SSA’s programs and organization, its accomplishments,
and its plans to achieve its mission. Having only one performance goal for the AC may not
provide the public an adequate picture of the AC’s functions, its accomplishments, its
shortcomings, or its plans to achieve its mission. Moreover, as previously noted, the AC has the
fewest performance goals compared to the other disability adjudication levels. As we stated in
the body of our report, we believe the Agency should revisit the appellate-level performance
goals shared with the public to ensure they provide sufficient information about the AC’s
performance processing request for review workloads.

At the time of our review, the Agency was sharing AC-level performance data (receipts,
dispositions, pending) for FYs 2012 and 2013 on their public Website (ssa.gov) as well as the
Data.gov Website. 3 The available data did not discuss the timeliness of AC case processing,
such as APT. In addition, we do not believe providing raw data are the same as setting Agency
goals. That said, such public information allows interested parties to learn more about the status
of the AC’s workload and come to their own conclusions. 4




2
 Government Performance and Results Act of 1993, Pub. L. 103-62, § 4(b), 107 Stat. 285, 287 (1993) as amended
by the GPRA Modernization Act of 2010, Pub. L. 111-352, § 3, 124 Stat. 3866, 3867, (2010), codified at 31 U.S.C. §
1115.
3
 Data.gov is an official website of the U.S. Government. The purpose of Data.gov is to increase public access to
high-value, machine-readable datasets generated by the Executive Branch of the Government.
4
    Access to a longer period of data would also allow the reader to have a better understanding of trends.



Request for Review Workloads at the Appeals Council (A-12-13-13039)                                            D-3
Appendix E – TECHNOLOGY IMPROVEMENTS AT THE
             APPEALS COUNCIL
New Technology and Management Information
In March 2008, the Appeals Council (AC) converted to a new case processing and management
system—the Appeals Review Processing System (ARPS). The new system provided field office
and teleservice center staffs with more information about AC cases than was previously
available.

ARPS can generate detailed and structured management information reports on receipts, adjusted
receipts, dispositions, average processing time, pending, and average age of pending. It can sort
reports by fiscal year, month, and week. The system can also produce listings based on a large
selection of criteria, such as by projected age of the case, by case status, by the assigned analyst,
by branch, type of case, and State. The system also allows the user to drill down to the case
details.

All AC staff and executives we interviewed stated that ARPS has proven to be very useful and
has contributed to increases in productivity.

Appeals Case Analysis Tool
The Appeals Case Analysis Tool (ACAT) is an analytical template tool in ARPS used by
analysts to draft their action memorandum to the adjudicator. All analysts are required to use it.

The tool has set questions and answers, but the tool also allows for narrative answers. The
questions are designed to capture all the case issues and elicit all the case information the
adjudicator(s) will need. After the information is entered into the tool, the tool produces a
one-page Facts of Finding memorandum; this memorandum goes to the adjudicator.

Nearly all the AC analysts and adjudicators we interviewed reported that ACAT effectively
summarizes the relevant case information for the adjudicator. They also said the tool has
improved overall efficiency.

“How MI Doing?” Tool for Adjudicators
The “How MI Doing?” tool is a management information tool that allows the AC adjudicators to
compare their productivity to the productivity of other adjudicators, both within their division or
throughout OAO. The tool also provides data on a weekly, monthly, or a fiscal year-to-date
basis. AC supervisory adjudicators also use the “How MI Doing?” tool to track the productivity
of their adjudicators. However, while the tool can provide productivity numbers for
adjudicators, it does not provide information on the quality of the case action.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                              E-1
The adjudicators we interviewed reported that the tool has contributed to greater productivity.
The adjudicators reported that seeing their production numbers in comparison to other
adjudicators gave them extra incentive to challenge themselves. Supervisory adjudicators also
said the tool allows them to have more management information to initiate discussions with
lower-producing adjudicators. The tool is only accessible by AC adjudicators and their
supervisors.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                           E-2
Appendix F – DECISIONAL REQUIREMENT MATRIX FOR
             APPEALS COUNCIL ADJUDICATORS
In Table F–1, we list the different types of Appeals Council (AC) actions associated with request
for review cases, and the adjudicators required for each type of action.

       Table F–1: AC Request for Review Actions and Related Adjudicator Sign-Off
                            (Fiscal Year 2012 Workloads)
                                               Number and Type of       Percent of Total AC
                AC Action
                                                  Adjudicator                 Actions
                                             One Appeals Officer or
                   Deny                    One Administrative Appeals        77 percent
                                                 Judge (AAJ)


                 Dismiss                             One AAJ                  4 percent



                Favorable                            Two AAJs                 2 percent



                 Remand                              Two AAJs                18 percent




Request for Review Workloads at the Appeals Council (A-12-13-13039)                           F-1
Appendix G – AGENCY COMMENTS




Request for Review Workloads at the Appeals Council (A-12-13-13039)   G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“REQUEST FOR REVIEW WORKLOADS AT THE APPEALS COUNCIL”

Recommendation 1

Revisit the appellate-level performance goals shared with the public to ensure they provide
sufficient information about the Appeals Council’s (AC) performance processing request for
review workloads.

Response

We agree. Our Office of Disability Adjudication and Review’s Office of Appellate Operations
will provide possible options for consideration in our Annual Performance Plan during the fiscal
year (FY) 2016 budget cycle.

Recommendation 2

Consider establishing uniform individual productivity goals and caps for AC adjudicators for the
time they spend processing request for review cases.

Response

We agree. We will consider whether other individual goals or recommendations might be
appropriate for AC adjudicators, to improve further the handling of request for review cases.

Recommendation 3

Improve communication of AC quarterly and annual performance goals with adjudicators,
managers, and staff to instill a greater understanding of organizational goals.

Response

We agree. While we communicate quarterly and annual performance goals to our employees, we
will improve our communication strategies to help employees understand how the work they do
fits into the performance goals. We will continue to communicate this information in a variety
of ways, including through ongoing discussions with managers and employees, by asking
managers to discuss the goals and answer questions in their team meetings, and through
additional broadcast articles.

Recommendation 4

Review and formalize successful parts of the existing quality review process for request for
review workloads, and monitor trends to demonstrate improvement as well as areas in need of
greater attention.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                             G-2
Response

We agree. We will formally document our quality review processes. Additionally, we will
begin publishing reports on our quality reviews starting with the results of our FY 2014 quality
reviews. We expect the reports to enhance our training and feedback to employees.

Recommendation 5

Explore additional methods for conducting quality reviews of the AC request for review
workload to ensure all relevant adjudicative actions are covered.

Response

We agree. We are exploring ways to enhance our quality assurance processes, such as ensuring
that it has a strong two-member approval process for remand decisions. Additionally, based on
available resources, we are exploring quality assurance efforts for other parts of the request for
review workload, such as a quality review process for clerical support functions.




Request for Review Workloads at the Appeals Council (A-12-13-13039)                             G-3
Appendix H– MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Nicholas Milanek, Audit Manager, Crystal City Audit Office

Ken Wong, Auditor-in-Charge




Request for Review Workloads at the Appeals Council (A-12-13-13039)   H-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                    CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website
at http://oig.ssa.gov/audits-and-investigations/audit-reports/all. For notification of newly
released reports, sign up for e-updates at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
